BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Motion Seeking Leave to File Amicus Curiae
Brief and Brief of Church of Lukumi Babalu Aye, Inc.,
Amicus Curiae in Support of Petitioners in 21-81, Burt
W. Newsome and Newsome Law, LLC v. Clark Andrew
Cooper; Balch & Bingham, LLP; John W. Bullock, Jr.;
Claiborne Porter Seier; and Don Cottier, was sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent via Next Day Service and e-mail to
the following parties listed below, this 20th day of
August, 2021:
Alexandra Crisanthi Siskopoulos
Siskopoulos Law Firm, LLP
136 Madison Avenue
6th Floor - #3007
New York, NY 10016
(646) 942-1798
acs@siskolegal.com

Counsel for Petitioners
Cason 1\1. Kirby
Campbell Partners, LLC
505 20th Street North, Suite 1600
Birmingham, AL 35203
(205) 224-07 52
cason@cainpbellpartnerslaw.com

Counsel for Respondents Balch & Bingham and
Clarh A. Cooper

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

: BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

Robert M. Ronnlund
Scott, Sullivan, Streetman & Fox, P.C.
31 Inverness Center Parkway, Suite 500
Birmingham, Alabama 35242
205-967-9676
ronnlund@sssandf.com
Counsel for Respondent Claiborne Porter Seier
Candace B. Crenshaw
James E. Hill, Jr.
Joel P. Watson
Hill, Gossett, Kemp & Hufford, P.C.
2603 Moody Parkway, Suite 200
Moody, AL 35004
205-640-2000
cbc@hhglawgroup.com
jimhill@stclairlawgroup.com
joelwatson@stclairgroup.com
Counsel for Respondent John F. Bullock, Jr.
Don Gottier
195 Whippoorwill Lane
Calera, AL 35040
Respondent Pro Se
David Clifford Holland
Counsel of Record
Law Offices of David Clifford Holland, P.C.
201 East 28th Street - Suite 2R
New York, New York 10016
212-842-2480
DCH@HollandLitigation.com
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 20, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

